TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      The Internal Revenue Service Is Not
                  in Compliance With Executive Order 13520
                        to Reduce Improper Payments



                                         August 28, 2013

                              Reference Number: 2013-40-084




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


THE INTERNAL REVENUE SERVICE IS                       cited the complexity of the EITC program as well
NOT IN COMPLIANCE WITH EXECUTIVE                      as the need to balance the reduction in improper
ORDER 13520 TO REDUCE IMPROPER                        payments while still encouraging individuals to
PAYMENTS                                              use the credit as the two main reasons why
                                                      reduction targets have not been established.
                                                      IRS management stated that they recently met
Highlights                                            with the Office of Management and Budget and
                                                      agreed to work together to develop
                                                      supplemental measures and indicators in lieu of
Final Report issued on August 28, 2013                reduction targets. However, the IRS did not
                                                      indicate when these measures would be in
Highlights of Reference Number: 2013-40-084           place.
to the Internal Revenue Service Deputy
Commissioner for Operations Support.                  The IRS is also not in compliance with the
                                                      quarterly reporting requirement for high-dollar
IMPACT ON TAXPAYERS                                   improper EITC payments (payments totaling
The IRS has made little improvement in                more than $5,000). To determine whether the
reducing improper Earned Income Tax Credit            IRS reported the applicable improper payments
(EITC) payments since being required to report        in Tax Year 2009, TIGTA reviewed a statistically
estimates of these payments to Congress. The          valid sample of the 60,793 Tax Year 2009 EITC
IRS’s Fiscal Year 2012 improper payment report        claims for more than $5,000 for which the IRS
to TIGTA indicates that EITC payments totaled         examined the return and adjusted the EITC.
nearly $62 billion. The IRS estimated that 21 to      Based on our review, TIGTA estimates that
25 percent of the EITC payments made in Fiscal        more than 10,400 of the EITC claims totaling
Year 2012 were paid in error.                         more than $52.8 million met the criteria for the
                                                      quarterly reporting to TIGTA as required by the
WHY TIGTA DID THE AUDIT                               Executive Order.
This audit was initiated because Executive            Finally, although privacy laws limit the IRS’s
Order 13520, Reducing Improper Payments and           ability to fully comply with the high-dollar EITC
Eliminating Waste in Federal Programs, requires       quarterly reporting requirement to the Council of
TIGTA to assess the IRS’s compliance with the         the Inspectors General on Integrity and
Order on an annual basis. The objective of this       Efficiency, there are actions that the IRS can
review was to assess the IRS’s efforts to             take to comply with the intent of the Executive
implement Executive Order 13520.                      Order. For example, the IRS could provide the
                                                      Council with an aggregated number of EITC
WHAT TIGTA FOUND                                      high-dollar payments along with the other
Executive Order 13520, signed by the President        required information.
on November 20, 2009, increased Federal               WHAT TIGTA RECOMMENDED
agencies’ accountability for reducing improper
payments while continuing to ensure that their        TIGTA recommended that the IRS develop
programs serve and provide access to their            processes to identify high-dollar improper EITC
intended beneficiaries. The IRS has taken steps       payments and report the information to TIGTA
to ensure access and participation by eligible        and the Council as required by Executive Order
individuals. The IRS estimates that the               13520.
participation rate for individuals who are eligible
to receive the EITC is between 78 and 80              IRS management agreed with our
percent.                                              recommendation and plans to take appropriate
                                                      corrective actions.
However, the IRS is still not in compliance with
the requirements of Executive Order 13520.
The IRS has not established annual improper
payment reduction targets as required. The IRS
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             August 28, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Internal Revenue Service Is Not in
                             Compliance With Executive Order 13520 to Reduce Improper
                             Payments (Audit # 201240046)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) efforts to
 implement Executive Order 13520, Reducing Improper Payments and Eliminating Waste in
 Federal Programs.1 Executive Order 13520 requires the Treasury Inspector General for Tax
 Administration to assess the IRS’s compliance with the Order on an annual basis. As such, this
 audit is part of our Fiscal Year 2013 Annual Audit Plan and addresses the major management
 challenge of Fraudulent Claims and Improper Payments.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. Please contact me if you have questions or Russell P. Martin, Acting Assistant
 Inspector General for Audit (Returns Processing and Account Services).




 1
  The White House, Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
 Programs (November 20, 2009).
                            The Internal Revenue Service Is Not in Compliance With
                             Executive Order 13520 to Reduce Improper Payments




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          A Significant Reduction in Earned Income Tax Credit
          Improper Payments Will Be Difficult to Achieve Without
          Alternatives to Traditional Compliance Methods ......................................... Page 5

          The Internal Revenue Service Is Still Not in Compliance
          With Executive Order 13520 ........................................................................ Page 7
                    Recommendation 1:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Efforts Undertaken to Reduce Improper Earned
          Income Tax Credit Payments ........................................................................ Page 19
          Appendix V – Internal Revenue Service Report to the Treasury
          Inspector General for Tax Administration .................................................... Page 21
          Appendix VI – Management’s Response to the Draft Report ...................... Page 33
        The Internal Revenue Service Is Not in Compliance With
         Executive Order 13520 to Reduce Improper Payments




                    Abbreviations

CIGIE         Council of the Inspectors General on Integrity and Efficiency
EITC          Earned Income Tax Credit
IRS           Internal Revenue Service
OMB           Office of Management and Budget
TIGTA         Treasury Inspector General for Tax Administration
                       The Internal Revenue Service Is Not in Compliance With
                        Executive Order 13520 to Reduce Improper Payments




                                           Background

The Earned Income Tax Credit (EITC) is a refundable tax credit that offsets income tax owed by
low-income taxpayers. Congress originally approved the EITC legislation in 1975 in part to
offset the burden of Social Security taxes and to provide an incentive to work. When the credit
exceeds the amount of taxes due, it generally provides a lump-sum payment in the form of a
refund to those who qualify. The Internal Revenue Service (IRS) is responsible for
administering the EITC. This includes providing education and outreach so that taxpayers are
aware of eligibility requirements for the credit as well as establishing programs to reduce
improper payment of the credit.
The Office of Management and Budget (OMB) defines an improper payment as any payment
that should not have been made or that was made in an incorrect amount. Improper payments
include overpayments as well as underpayments. The IRS estimated that 21 to 25 percent of the
EITC payments made in Fiscal Year1 2012 were paid in error. Figure 1 illustrates the estimated
portion of erroneous EITC payments for Fiscal Year 2012.
               Figure 1: EITC Payments Made in Error in Fiscal Year 2012

                        Improper
                       Payments
                          21%




                                                                              Correct
                                                                             Payments
                                                                               79%

                  Source: IRS Report on EITC Improper Payments Executive Order 13520:
                  Reducing Improper Payments.




1
 A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                       Page 1
                         The Internal Revenue Service Is Not in Compliance With
                          Executive Order 13520 to Reduce Improper Payments



The IRS continues to face challenges in reducing improper EITC payments
In its Fiscal Year 2012 Agency Financial Report,2 the Department of the Treasury identified a
number of factors that continue to serve as barriers to reducing improper payments in the EITC
program. These include:
        Complexity of the tax law, including the need for congressional authorization of math
         error authority.
        Structure of the EITC.
        Confusion among eligible claimants.
        High turnover of eligible claimants.
        Unscrupulous tax return preparers.
        Fraud.
EITC eligibility rules are complicated and cause taxpayers to make errors while attempting to
interpret and apply the tax laws to their individual situations. In addition, the changing
population of taxpayers who claim the EITC increases the difficulty the IRS faces in improving
EITC compliance. The IRS has conducted numerous studies showing how taxpayers move in
and out of the EITC program. Studies show that approximately one-third of EITC claimants
each year are intermittent3 or first-time claimants. The Department of the Treasury stated that
none of the six factors listed above can be considered the primary driver of EITC improper
payments. The interaction among the factors makes it extremely difficult to address the credit’s
improper payment rate while balancing the need to ensure that eligible taxpayers receive the
credit.

Executive Order 13520, Reducing Improper Payments and Eliminating Waste in
Federal Programs,4 increased accountability for improper payments
Executive Order 13520, in conjunction with the Improper Payments Information Act of 2002,5
the Improper Payments Elimination and Recovery Act of 2010,6 and the Improper Payments
Elimination and Recovery Improvement Act of 2012,7 defines Federal agencies’ responsibility
for identifying and reducing improper payments in Federal programs. The Executive Order,
signed by the President on November 20, 2009, increased Federal agencies’ accountability for
reducing improper payments while continuing to ensure that their programs serve and provide

2
  Agency Financial Report, Department of the Treasury, Fiscal Year 2012, issued November 15, 2013.
3
  Some taxpayers claim the EITC in one year but not the next, then file and claim the credit again at a later time.
4
  The White House, Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs (November 20, 2009).
5
  Pub. L. 107-300.
6
  Pub. L. 111-204.
7
  Pub. L. 112-248.
                                                                                                               Page 2
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



access to their intended beneficiaries. The Executive Order also requires Federal agencies to
provide their agency Inspector General detailed information on efforts to identify and reduce the
number of improper payments in Federal programs with the highest dollar amount of improper
payments. As such, the IRS is required to provide specific information regarding EITC
payments to the Treasury Inspector General for Tax Administration (TIGTA) on an annual
basis. The Order requires TIGTA, following receipt and review of the reported information, to
assess the level of risk associated with the EITC program, determine the extent of oversight
warranted, and provide the IRS Commissioner with recommendations for modifying the IRS’s
plan to reduce EITC improper payments.
In addition to the annual report, the Executive Order also requires Federal agencies to submit a
quarterly report to the agency’s Inspector General and the Council of the Inspectors General on
Integrity and Efficiency (CIGIE),8 which details specific information on high-dollar improper
payments9 identified by the agency. Agencies are required to provide this information for public
release unless the information requested is protected by privacy rules or regulations.10 Agencies
with no high-dollar activity in a given quarter are not required to report for that quarter.

A prior TIGTA report 11 found that the IRS was not in compliance with Executive
Order 13520
In February 2011, TIGTA reported that the IRS’s methodology for computing the EITC
improper payment rate provided a valid estimate of EITC overpayments. However, the IRS did
not provide an estimate of EITC underpayments as required. In addition, the IRS report to
TIGTA did not include annual EITC improper payment reduction targets or plans and supporting
analysis for ensuring that the initiatives undertaken do not unduly burden program access and
participation by eligible beneficiaries.
We recommended that the IRS establish quantifiable reduction targets along with strategies to
meet those targets. We also recommended that the IRS estimate instances in which it incorrectly
pays less EITC than the taxpayer claims (underpayments) in order to provide an estimate that fits
the OMB definition of improper payments. The IRS agreed to evaluate the feasibility of
estimating EITC underpayments. IRS management also agreed that they should establish

8
  The CIGIE was established within the executive branch by the Inspector General Act of 1978 (5 U.S.C. app. 3) as
amended by the Inspector General Reform Act of 2008 (Pub. L. No. 110-409, 122 Stat. 4302 (codified in 5 U.S.C.
app. 3)) to address integrity, economy, and effectiveness issues that transcend individual Government agencies and
increase the professionalism and effectiveness of personnel by developing policies, standards, and approaches to aid
in the establishment of a well-trained and highly skilled workforce in the offices of Inspectors General.
9
  A high-dollar overpayment is defined by the OMB as any overpayment that is in excess of 50 percent of the correct
amount of the intended payments where the total payments to an individual in any quarter exceed $5,000.
10
   Agencies are to publish specific information regarding improper payments on the Internet for the public to access.
 The website address is http://www.paymentaccuracy.gov/.
11
   TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce Billions
of Dollars in Improper Earned Income Tax Credit Payments Each Year (Feb. 2011).
                                                                                                            Page 3
                       The Internal Revenue Service Is Not in Compliance With
                        Executive Order 13520 to Reduce Improper Payments



quantifiable EITC reduction targets. However, IRS management indicated that they would not
establish these targets until the IRS had fully implemented its Return Preparer Program12 in
September 2013.
This review was performed at the IRS Headquarters in the Office of Research, Analysis, and
Statistics and in the Office of the Chief Financial Officer in Washington, D.C., during the period
November 2012 through March 2013. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




12
  A program that pursues unscrupulous return preparers who knowingly claim excessive deductions and exemptions
on returns prepared for clients. The clients may or may not have knowledge of the false claims.
                                                                                                      Page 4
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments




                                      Results of Review

A Significant Reduction in Earned Income Tax Credit Improper
Payments Will Be Difficult to Achieve Without Alternatives to
Traditional Compliance Methods
As we reported previously, despite numerous efforts, the IRS is unlikely to achieve any
significant reduction in EITC improper payments. The IRS has implemented numerous
processes to educate taxpayers and identify and prevent improper EITC payments.13 For Fiscal
Year 2012, the IRS reported that its efforts protected approximately $4 billion in erroneous EITC
payments and identified approximately 7,000 paid tax return preparers who were not complying
with EITC due diligence requirements.14
Although significant amounts are being protected, the IRS has made little improvement in
reducing improper EITC payments as a whole since it has been required to report estimates of
these payments to Congress. The IRS acknowledges that further reductions in the EITC
improper payment rate will be difficult to achieve. Figure 2 presents the IRS’s estimated EITC
improper payments for Fiscal Years 2003 through 2012.




13
 See Appendix IV for a description of these initiatives.
14
 Due diligence requirements require paid tax return preparers to gather, verify, and maintain specific information
when filing a tax return claiming the EITC.
                                                                                                            Page 5
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



       Figure 2: EITC Improper Payments for Fiscal Years 2003 Through 2012

                                                                 Minimum                 Maximum
                        Minimum            Maximum               Improper                Improper
                        Improper           Improper              Payments                Payments
                       Payments15          Payments               Dollars                 Dollars
      Fiscal Year      Percentage         Percentage             (Billions)              (Billions)

          2003             25%                 30%                   $9.5                   $11.5
          2004             22%                 27%                   $8.6                   $10.7
          2005             23%                 28%                   $9.6                   $11.4
          2006             23%                 28%                   $9.8                   $11.6
          2007             23%                 28%                  $10.4                   $12.3
          2008             23%                 28%                  $11.1                   $13.1
          2009             23%                 28%                  $11.2                   $13.3
          2010             24%                 29%                  $15.3                   $18.4
          2011             21%                 26%                  $13.7                   $16.7
                  16
          2012             21%                 25%                  $11.6                   $13.6
          Total                                                   $110.8                   $132.6
     Source: Department of the Treasury Performance and Accountability Reports for Fiscal Years 2003
     through 2010 and the Fiscal Year 2011 and Fiscal Year 2012 Agency Financial Reports.

The IRS must move beyond traditional compliance methods to significantly
reduce improper EITC payments
The IRS must develop alternatives to traditional compliance methods to significantly reduce
EITC improper payments. Limited resources and the need to balance compliance efforts among
taxpayers in all income levels limit the effectiveness of traditional compliance methods in
reducing improper EITC payments. For example, in December 2008, we reported that the IRS’s




15
   For Fiscal Years 2005 through 2009, the IRS computed the minimum and maximum improper payment rates
(referred to as the upper and lower bounds) using different sets of assumptions concerning the compliance of EITC
claimants who fail to show up for the National Research Program audit.
16
   The estimate for FY 2012 is outdated. It was based on the assumption that a provision in the American
Reinvestment and Recovery Act of 2009 (Recovery Act) (Pub. L. No. 111-5, 123 Stat. 115 (2009)) that increased
the EITC for certain taxpayers would expire at the end of 2010. However, the Tax Relief, Unemployment Insurance
Reauthorization, and Job Creation Act of 2010 (Pub. L. No. 111-312,124 Stat. 3299 (2010)) extended the provision
through December 2012. It was later extended through December 2017 by the American Taxpayer Relief Act of
2012 (Pub. L. No. 112-240,126 Stat. 2319 (2013)).
                                                                                                         Page 6
                         The Internal Revenue Service Is Not in Compliance With
                          Executive Order 13520 to Reduce Improper Payments



Dependent Database17 identified almost 600,000 potentially erroneous Tax Year 2005 EITC
claims totaling $1.3 billion.18 However, the IRS did not have the resources to address
93.7 percent of these cases with claims totaling $1.2 billion. We recommended that the IRS
conduct a study to identify alternative processes that will expand its ability to effectively and
efficiently identify and adjust erroneous EITC claims. The IRS agreed with our
recommendation. The IRS also agreed to work with the Assistant Secretary of the Treasury for
Tax Policy to obtain the authority necessary to implement alternative compliance processes.
In the IRS’s Fiscal Year 2012 EITC improper payment report to TIGTA,19 the IRS
acknowledged that it cannot fully address EITC noncompliance by examining tax returns and
must pursue alternatives to traditional compliance methods. The IRS’s report does not indicate
that it has taken any steps to identify or implement alternative compliance methods since we first
made our recommendations in December 2008. As we have previously reported, if the IRS does
not move beyond its traditional compliance methods, it will be unable to make any significant
reduction in the estimated $11 billion to $13 billion issued each year in improper EITC
payments. We are initiating an audit to review the study the IRS performed to identify
alternative processes in response to our recommendation. We plan to issue a report next fiscal
year.

The Internal Revenue Service Is Still Not in Compliance With
Executive Order 13520
Executive Order 13520 requires the IRS to provide TIGTA with an annual report detailing
specific information on improper EITC payments. This report is due within 120 calendar days of
the publication of the Department of the Treasury’s annual Agency Financial Report. On
June 14, 2010, the IRS provided the required report to TIGTA for Fiscal Year 2009. However,
the IRS did not provide TIGTA with the required report for Fiscal Years 2010 or 2011. The IRS
explained that, due to personnel changes, the required reports for these fiscal years were not
provided to TIGTA. As such, the IRS included information for Fiscal Years 2010 and 2011 in
its Fiscal Year 2012 report.
On March 14, 2013, the IRS provided the required report for Fiscal Year 2012. The Fiscal
Year 2012 report included information for Fiscal Years 2010 and 2011 as the IRS indicated.
However, the IRS did not include all of the information required by the Executive Order in its

17
   A risk-based audit selection tool used by the IRS to identify tax returns for audit. The Dependent Database is
made up of a collection of information databases that include birth certificate information and court documents used
to establish a relationship and residency between the taxpayer and the qualifying children claimed on the tax return.
18
   TIGTA, Ref. No. 2009-40-024, The Earned Income Tax Credit Program Has Made Advances; However,
Alternatives to Traditional Compliance Methods Are Needed to Stop Billions of Dollars in Erroneous Payments
(Dec. 2008).
19
   IRS, Report on Earned Income Tax Credit (EITC) Improper Payments Executive Order 13520: Reducing
Improper Payments (March 14, 2013).
                                                                                                             Page 7
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



Fiscal Year 2012 report to TIGTA. Appendix V provides a copy of the IRS’s Fiscal Year 2012
report. Figure 3 provides our assessment of the IRS’s compliance with the Executive Order
requirements to provide specific improper payment information to TIGTA.
                Figure 3: Executive Order 13520 Reporting Requirements

Reporting                                                                                         Requirement
Frequency                                      Requirement                                           Met?

     Annually   Provide TIGTA with a report containing:

                       Methodology for identifying and measuring EITC improper                        Yes
                        payments.

                       Plans and supporting analysis for meeting the reduction targets
                        for EITC improper payments.                                                     No

                       Plans and supporting analysis for ensuring that the initiatives
                        undertaken do not unduly burden program access and                             Yes
                        participation by eligible beneficiaries.

                       Required information provided for posting to
                        paymentaccuracy.gov website.                                                   Yes

 Quarterly      Submit to TIGTA and the CIGIE and make available to the public a                 No quarterly
                report on EITC improper payments identified by the agency. The report            reports have
                shall describe:                                                                  been provided
                                                                                                 to TIGTA.
                       Number of high-dollar improper payments made during the
                        quarter.                                                                 Disclosure laws
                                                                                                 may limit the
                       The individuals or entities that received the improper payments.         IRS’s ability to
                                                                                                 comply with
                       Actions the IRS has taken or plans to take to recover high-dollar        CIGIE and
                        improper payments.                                                       public reporting
                       Actions the IRS intends to take to prevent improper payments             requirements.
                        from occurring in the future.
Source: TIGTA analysis of the IRS’s Fiscal Year 2012 Executive Order 13520 report and OMB guidance issued on
implementing Executive Order 13520.

The National Research Program is the primary source of data to estimate the
annual EITC improper payment rate
The IRS uses its National Research Program20 as the primary source of data to estimate the
annual EITC improper payment rate. The National Research Program provides the IRS with

20
  Research conducted by the IRS to determine filing, payment, and reporting compliance by taxpayers for different
types of taxes.
                                                                                                          Page 8
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



compliance information that is statistically representative of the taxpayer population. Updated
estimates of taxpayer compliance are computed for each tax year.21 The IRS uses each tax year’s
National Research Program results to update the EITC improper payment rate. Figure 4 shows
the formula the IRS uses to compute the improper payment rate of EITC claims.
                       Figure 4: Improper EITC Payment Rate Formula


                        Total Overclaims – Total Claims Protected/Recovered
                                        Total EITC Claims

 Total Overclaims – The difference between the amount of the EITC claimed by the taxpayer
 on his or her tax return and the amount the taxpayer should have claimed.
 Total Claims Protected/Recovered – The amount of EITC overclaims that the IRS prevents
 from being paid through activities such as math error processing and prerefund examinations
 or recovers after being paid through Automated Underreporter document matching and
 post-refund examinations.

 Total EITC Claims – The amount of the EITC claimed on all tax returns.

Source: TIGTA analysis of the IRS’s Fiscal Year 2012 Executive Order 13520 report.

In February 2011, we reported that the methodology used to compute the EITC improper
payment rate provides a valid estimate of the percentage and amount of EITC overpayments.
However, the improper payment calculation does not include the amount of EITC
underpayments. Underpayments include EITC payments made to individuals that are less than
the individual was entitled to receive. The IRS’s report indicated that it intends to incorporate
underpayments into its estimates beginning with the Fiscal Year 2013 estimate.
The estimates for Fiscal Year 2012 EITC claims and improper payments are understated
because the laws extending EITC increases were not factored into the estimates
The IRS uses an estimate for current year EITC claims because it does not know the actual
amount at the time it computes the improper payment estimates. The IRS is required to submit
improper payment estimates to the Department of the Treasury for inclusion in the Agency
Financial Report prior to the end of each fiscal year. The estimate of EITC claims is based on a
budget projection prepared by the Department of the Treasury Office of Tax Analysis. The
projection is then provided to the OMB for inclusion in the OMB’s published budget. The IRS
uses this OMB data to estimate EITC claims for a given fiscal year.


21
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                         Page 9
                       The Internal Revenue Service Is Not in Compliance With
                        Executive Order 13520 to Reduce Improper Payments



The IRS adjusts the estimate to account for claims that are submitted to the IRS but not paid due
to processing controls. This adjusted budget projection is used to compute the amount of EITC
claims paid in error. The estimated Fiscal Year 2012 EITC claim amount of $55.4 billion used
to estimate EITC improper payments is significantly less than what was estimated in both Fiscal
Year 2010 ($64.2 billion) and Fiscal Year 2011 ($64.7 billion). A representative from the
Department of the Treasury Office of Tax Analysis, the office which developed the budget
estimate, stated that the lower estimate for EITC claims is due to an assumption made when
computing the 2012 budget projection. The assumption was that the Recovery Act third-child
provision would no longer be in effect for claims on tax returns filed in Fiscal Year 2012. The
Recovery Act increased the credit for families with three or more EITC qualifying children. This
provision was to expire in December 2010.
However, the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of
2010 extended the increased credit amount through December 2012. It was later extended
through December 2017 by the American Taxpayer Relief Act of 2012. Neither the Department
of the Treasury nor the IRS adjusted the budget estimate to account for the extended EITC
provision before using it to compute the amount of Fiscal Year 2012 EITC improper payments.
As a result, the IRS’s estimate of the amount of EITC paid in error in Fiscal Year 2012 is
understated. The IRS informed us that it plans to adjust the Department of the Treasury’s
Fiscal Year 2013 budget estimate to ensure that the extended EITC provision is captured in its
Fiscal Year 2013 estimate of EITC improper payments.

The IRS still has not established EITC reduction targets as required
The IRS’s Fiscal Year 2012 report to TIGTA again does not include any reduction targets and
the associated plans for meeting those targets as required. We also reported this issue in our
February 2011 report on the IRS’s compliance with Executive Order 13520 and in our review of
the IRS’s compliance with the Improper Payments Elimination and Recovery Act for Fiscal Year
2012.22 In our February 2011 report, we recommended, and the IRS agreed, that reduction
targets should be established. However, the IRS responded that it was in the early stages of
implementing its Return Preparer Program and did not want to establish reduction targets until
the program has been fully established. The IRS believed that once the program was established,
it would have a good baseline from which it could develop meaningful reduction targets.
The IRS again stated in its Fiscal Year 2012 report that the regulation of tax preparers will drive
increased EITC compliance, decrease fraud, and reduce the improper payment rate. However,
we have expressed concern with this same assertion the IRS has made in the past because the
IRS does not provide details relating to the specific reductions in improper payments as a result
of tax preparer regulations nor does it provide details on when or how the IRS plans to measure


22
  TIGTA, Ref. No. 2013-40-024, The Internal Revenue Service Was Not in Compliance With All Requirements of
the Improper Payments Elimination and Recovery Act for Fiscal Year 2012 (Feb. 2013).
                                                                                                   Page 10
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



the impact of tax return preparer regulations on EITC improper payments. We still have this
same concern.
Moreover, it has become less likely that these new regulations will have a substantial impact. On
January 18, 2013, the U.S. District Court for the District of Columbia enjoined the IRS from
enforcing some of its regulatory requirements for tax return preparers. While the IRS can require
tax return preparers to register with the IRS, it cannot require preparers to complete competency
tests and obtain continuing education. On January 23, 2013, the IRS appealed the District
Court’s ruling and applied for a stay allowing the program to continue pending the outcome of
the IRS’s appeal. On March 27, 2013, the U.S. Court of Appeals for the District of Columbia
denied the application for a stay. Therefore, the IRS’s effort to regulate paid tax return preparers
is on hold pending the outcome of its appeal, and it is unknown how long it will take the courts
to resolve the appeal.
In the meantime, the IRS continues its outreach and education efforts to EITC return preparers
with the goal to educate them on the EITC, the due diligence requirements, and the new due
diligence penalty. The IRS estimates that two-thirds of EITC claims are prepared with the
assistance of paid tax return preparers. More than 8,500 tax return preparers received a
certificate of completion for the IRS’s English and Spanish interactive EITC Due Diligence
training module. In addition, more than 12,000 tax return preparers attended a webinar
discussing the regulation changes, and more than 10,000 tax return preparers attended EITC and
due diligence presentations at the 2012 Nationwide Tax Forum.
Finally, in its Fiscal Year 2012 report, the IRS indicated that setting EITC improper payment
reduction targets is one of the continuing challenges faced by the IRS. The IRS cited the
complexity of the EITC program as well as the need to balance the reduction in improper
payments while still encouraging eligible individuals to use the credit as the two main reasons
that establishing reduction targets has been so difficult. The IRS noted that it recently met with
the OMB and agreed to work together to develop supplemental measures23 that are appropriate to
gauge the impact of compliance and outreach efforts in lieu of developing error reduction targets.
However, the IRS’s report did not indicate when these measures would be in place.

The IRS continues to take steps to ensure access and participation by eligible
individuals
The IRS continues to administer the EITC through a balanced program of education and outreach
coupled with strategic programs to reduce improper payments. According to the IRS, the EITC
participation rate for individuals eligible to receive the credit is between 78 and 80 percent. The
IRS’s report to TIGTA provides details on the specific steps it takes to ensure that all eligible
individuals have access to the credit. The IRS’s efforts in Fiscal Year 2012 included:

23
  A supplemental measure should focus on higher risk areas within the high-priority program and report on root
causes of errors that agencies can resolve through corrective actions.
                                                                                                         Page 11
                            The Internal Revenue Service Is Not in Compliance With
                             Executive Order 13520 to Reduce Improper Payments



          Holding the sixth annual EITC Awareness Day. This targeted EITC underserved
           populations and included targeted compliance messages.
          Conducting English and Spanish media tours reaching an audience of more than
           1.8 million taxpayers.
          Holding conference calls with the print media in English and Spanish that had circulation
           of more than 1.4 million.
          Conducting radio interviews in both English and Spanish that reached more than
           1,000 markets.

The IRS has not provided TIGTA or the CIGIE with required quarterly reports
detailing high-dollar improper payments
The IRS has not provided the required quarterly reports on high-dollar improper payments
(payments totaling more than $5,000) to TIGTA since Tax Year 2009. The quarterly report is to
include the names of the individuals who received high-dollar improper EITC payments and the
actions the IRS has taken or plans to take to recover the improper payments. Additionally, the
report must list any actions the IRS intends to undertake to prevent high-dollar improper EITC
payments from occurring in the future.
Prior to Tax Year 2009, the maximum allowable EITC payment was below the $5,000 reporting
minimum, so it was not possible for the IRS to make a high-dollar improper EITC payment.
However, the Recovery Act raised the maximum allowable EITC above $5,000 beginning in Tax
Year 2009. Our February 2011 report cited this change and noted that the IRS may be required
to report high-dollar improper EITC payments beginning with Tax Year 2009. Figure 5 shows
the maximum allowable EITC payment based on the number of qualifying children for Tax
Years 2009 through 2012.
                                  Figure 5: Maximum EITC Payment
                            by Tax Year and Number of Qualifying Children

                                                      Tax Year          Tax Year           Tax Year          Tax Year
     Number of Qualifying Children24                    2009              2010               2011              2012
Three or more qualifying children                      $5,657             $5,666            $5,751             $5,891
Two qualifying children                                $5,028             $5,036            $5,112             $5,236
One qualifying child                                   $3,043             $3,050            $3,094             $3,169
No qualifying children                                   $457              $457              $464               $475
Source: IRS.gov.

24
     A child must pass four tests to be a qualifying child for the EITC: age, relationship, residency, and joint return.
                                                                                                                 Page 12
                    The Internal Revenue Service Is Not in Compliance With
                     Executive Order 13520 to Reduce Improper Payments



To determine if the IRS made improper high-dollar EITC payments in Tax Year 2009 that
should have been reported, we analyzed a statistically valid sample of 245 of the 60,793 EITC
claims of more than $5,000 for which the IRS later reduced or denied the claim. Our review
showed that the IRS made 42 improper payments fitting the OMB definition of a high-dollar
reportable payment. These 42 improper payments total $212,952. Based on the results of our
statistically valid sample, we project that the IRS potentially made more than 10,400 such
high-dollar improper EITC payments totaling more than $52.8 million during Tax Year 2009.
These high-dollar improper EITC payments should have been reported to TIGTA quarterly as
required by Executive Order 13520.
Internal Revenue Code Section 6103(a) prohibits the IRS from providing taxpayer identifying
information, including a taxpayer’s name and tax account information, to anyone who has not
been granted specific authority under the Code. As a result, the IRS cannot provide the
information required by the Executive Order for high-dollar improper payments to the CIGIE.
However, we believe the IRS may be able to comply with the intent of the quarterly reporting
requirement despite being prohibited from releasing taxpayer information to the CIGIE. For
example, the IRS could provide the CIGIE with an aggregated number of EITC high-dollar
payments along with the other required information. The IRS should work with the OMB to
establish an alternative reporting requirement for high-dollar improper EITC payments that will
allow the IRS to comply with the intent of the Executive Order.

Required information was sent for posting to the paymentaccuracy.gov website
Executive Order 13520 also requires agencies to publish specific information on the Internet
about improper payments made under high-priority programs. A website titled
paymentaccuracy.gov was created to provide the general public with access to the information.
The IRS is required to provide specific information but is not responsible for maintaining and
updating this website. The Department of the Treasury is responsible for updating information
on this website. Our analysis determined that the IRS provided all of the proper information to
the Department of the Treasury with the exception of reduction targets as previously discussed.
Figure 6 contains the results of our review.




                                                                                         Page 13
                           The Internal Revenue Service Is Not in Compliance With
                            Executive Order 13520 to Reduce Improper Payments



        Figure 6: Information Required to Be Published on paymentaccuracy.gov

                                                                                 Information
                                                                                 Provided As
                                          Requirement                             Required?

Name of an accountable official.                                                     Yes

Current/historical rates and amounts of improper payments, including causes.         Yes

Current and historical rates and amounts of recovery of improper payments.           Yes

Targets for reducing as well as recovering improper payments.                        No

Entities that have received the greatest amount of improper payments.25              N/A

Source: OMB guidance issued on implementing Executive Order 13520.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support should develop
processes to identify high-dollar improper EITC payments and report the information to TIGTA
and the CIGIE as required by Executive Order 13520.
           Management’s Response: The IRS agreed with this recommendation. The IRS will
           develop the quarterly reports on summary volumes and amounts of post-refund
           high-dollar EITC payment reversals that the OMB agreed meet the quarterly report
           requirements of Executive Order 13520. Due to the requirements of Internal Revenue
           Code Section 6103(a), the IRS can only provide summary data to the CIGIE.




25
     Privacy laws prohibit compliance with this requirement.
                                                                                      Page 14
                       The Internal Revenue Service Is Not in Compliance With
                        Executive Order 13520 to Reduce Improper Payments



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s efforts to implement Executive
Order 13520, Reducing Improper Payments and Eliminating Waste in Federal Programs.1 We
verified the reliability of the electronic data used in this review by scanning the data extracts for
blank, incomplete, illogical, or improper data. In addition, to ensure accuracy, we traced a
judgmental sample from our dataset to IRS source files by using the Integrated Data Retrieval
System.2 To accomplish our objective, we:
I.      Determined whether the prior TIGTA recommendations were implemented. We met
        with IRS personnel from the IRS Office of the Chief Financial Officer to determine if
        reduction targets had been established. We also determined whether the IRS used the
        National Research Program3 sample to estimate instances in which the IRS incorrectly
        pays less in the EITC than the taxpayer claims (underpayments).
II.     Reviewed the IRS’s report on EITC improper payments for Fiscal Year4 2012 issued to
        TIGTA on March 14, 2013, to determine if the IRS was in compliance with the reporting
        requirements of Executive Order 13520.
        A. Determined whether the IRS included its methodology for identifying and measuring
           EITC improper payments, plans and supporting analysis for meeting the reduction
           targets for improper EITC payments, and plans and supporting analysis for ensuring
           that the initiatives undertaken to reduce improper payments do not unduly burden
           program access and participation by eligible beneficiaries.
        B. Reviewed paymentaccuracy.gov to ensure that the required information was
           published on the website.
        C. Evaluated the IRS’s efforts to ensure that eligible individuals continue to have access
           to the EITC. We obtained current and historical EITC participation rates and
           analyzed them to determine if participation has increased. We also requested
           information from the IRS detailing the steps it takes to encourage program access and

1
  The White House, Executive Order 13520, Reducing Improper Payments and Eliminating Waste in Federal
Programs (November 20, 2009).
2
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with
taxpayer account records.
3
  The IRS National Research Program is a comprehensive effort to measure voluntary compliance through annual
studies on the reporting compliance of Form 1040, U.S. Individual Income Tax Return, taxpayers.
4
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                       Page 15
                     The Internal Revenue Service Is Not in Compliance With
                      Executive Order 13520 to Reduce Improper Payments



           analyzed this information to determine if the IRS’s actions ensured that eligible
           individuals have access to the EITC program.
       D. Determined whether the IRS had a quarterly reporting requirement. We used the
          TIGTA Data Center Warehouse and identified 60,793 Tax Year 2009 EITC claims of
          more than $5,000 for which the IRS reduced or denied the claim. We validated the
          data by matching a judgmental sample to the IRS’s Integrated Data Retrieval System
          to ensure that the data were consistent and complete.
           1. Reviewed a statistically valid sample of 245 of the 60,793 Tax Year 2009 EITC
              claims of more than $5,000. Our sample size was determined based on a
              confidence level of 95 percent, an expected rate of occurrence of 20 percent, and a
              precision of ± 5 percent. A statistical sample was taken because we wanted to
              estimate the number of returns with high-dollar improper EITC payments in Tax
              Year 2009. We determined that the IRS made high-dollar improper payments in
              42 of the 245 tax returns we reviewed, with payments totaling $212,952.
           2. Projected the results of our statistically valid sample of 245 Tax Year 2009 tax
              returns to the population. We estimated that the IRS made 10,421 high-dollar
              improper EITC payments totaling $52.8 million in Tax Year 2009.
       E. Analyzed the Department of the Treasury’s Fiscal Year 2012 Agency Financial
          Report and the IRS’s March 14, 2013, EITC improper payment report to TIGTA and
          assessed the level of risk and oversight warranted. We interviewed IRS personnel to
          determine what has been done to reduce improper EITC payments and obtained
          current and historical rates for improper EITC payments to determine if the IRS had
          made improvements.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: controls in place to ensure that the IRS is
compliant with Executive Order 13520. We evaluated these controls by analyzing the IRS’s
Fiscal Year 2012 report on EITC improper payments. In addition, we reviewed a statistically
valid sample of high-dollar improper EITC payments made in Tax Year 2009.




                                                                                            Page 16
                   The Internal Revenue Service Is Not in Compliance With
                    Executive Order 13520 to Reduce Improper Payments



                                                                              Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Kyle R. Andersen, Director
Deann L. Baiza, Director
Roy E. Thompson, Audit Manager
Mark V. Willoughby, Lead Auditor
Douglas C. Barneck, Senior Auditor




                                                                                     Page 17
                   The Internal Revenue Service Is Not in Compliance With
                    Executive Order 13520 to Reduce Improper Payments



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Office of the Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Deputy Commissioner, Services and Operations, Wage and Investment Division SE:W
Deputy Director, Office of Research, Analysis, and Statistics RAS
Director, Return Integrity and Correspondence Services, Wage and Investment Division
SE:W:RICS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief Financial Officer CFO
       Chief, Program Evaluation and Improvement, Wage and Investment Division
       SE:W:S:PEI




                                                                                       Page 18
                       The Internal Revenue Service Is Not in Compliance With
                        Executive Order 13520 to Reduce Improper Payments



                                                                                            Appendix IV

              Efforts Undertaken to Reduce Improper
               Earned Income Tax Credit Payments

The IRS’s Fiscal Year1 2012 report to TIGTA2 details the tools the IRS has in place to verify
EITC claims and prevent or recover improper EITC payments. The IRS has two primary tools
that it uses to identify improper EITC payments before the EITC refund is paid – math error and
prerefund examinations. The IRS also uses document matching and post-refund examinations to
identify and recover improper EITC payments that have already been issued to taxpayers.
       Math Error – An automated process that allows the IRS to systemically deny an EITC
        claim when certain conditions exist, e.g., clerical errors and invalid Taxpayer
        Identification Numbers. Math error checks are performed while tax returns are being
        processed and before refunds are sent to taxpayers. According to the IRS, it protects
        $320 million in erroneous EITC refunds annually as a result of math error authority.
       Prerefund Examinations – Prerefund examinations are conducted to determine the
        validity of the EITC claim before the EITC refund is issued. The IRS uses complex
        filters to identify potentially erroneous EITC claims and select EITC tax returns for
        examination. Once a tax return is selected for examination, the IRS places a hold on the
        EITC portion of the taxpayer’s refund until it can make a determination as to the validity
        of the EITC claim. The IRS continues to process the tax return without the EITC and
        issues the non-EITC portion of the tax refund to the taxpayer. According to the IRS,
        70 percent of the 500,000 EITC examinations the IRS conducts each year are prerefund
        examinations. These examinations protected approximately $1.6 billion in EITC refunds
        in Fiscal Year 2012.
       Document Matching – The IRS’s Automated Underreporter program matches income
        claimed on tax returns to income reported by third parties to identify instances in which
        EITC claimants underreport income. At a predetermined level of income, the amount of
        the EITC that an individual is eligible for decreases as the individual’s income increases.
        Therefore, taxpayers have an incentive to underreport income to increase the amount of
        the EITC they are eligible for. When differences in claimed and reported income are
        discovered, the IRS adjusts the taxpayer’s income, recalculates the EITC, and pursues



1
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
2
  As required by Executive Order 13520. The IRS issued the report to TIGTA on March 14, 2013.
                                                                                                       Page 19
                        The Internal Revenue Service Is Not in Compliance With
                         Executive Order 13520 to Reduce Improper Payments



        recovery of the amount of the EITC paid in error. The IRS protected $1.6 billion in EITC
        claims in Fiscal Year 2012 as a result of document matching.
       Post-refund Examinations – Post-refund examinations occur after the tax return is
        processed and a refund has been issued. Similar to prerefund examinations, the IRS
        evaluates the validity of a taxpayer’s EITC claim. If it is determined that the EITC claim
        is not valid, the IRS will calculate the amount of the EITC refund issued in error and
        make an assessment to the taxpayer’s account for that amount. These examinations
        protected approximately $0.5 billion in EITC refunds in Fiscal Year 2012.
       Paid Tax Return Preparer Compliance Initiatives – The IRS estimates that
        approximately two-thirds of all EITC claims were filed with the assistance of paid tax
        return preparers. The IRS has developed an outreach program to educate and assist tax
        return preparers in preparing correct EITC claims. The IRS has also developed programs
        to address tax return preparers who repeatedly file erroneous EITC claims. As a result of
        these programs, the IRS was able to address the noncompliance of more than 7,000 tax
        return preparers during Fiscal Year 2012. One program identified 1,500 tax return
        preparers who prepared 660,000 tax returns and protected more than $183 million in
        EITC payments.
Figure 1 details the revenue the IRS protected or expects to protect as a result of its efforts to
reduce improper EITC payments.
        Figure 1: EITC Revenue Protected for Fiscal Years 2007 Through 2013

                                                  Enforcement Revenue Protected
                                                        (Dollars in Billions)
                         Fiscal    Fiscal    Fiscal       Fiscal   Fiscal   Fiscal   Fiscal   Fiscal Years
                         Year      Year      Year         Year     Year     Year     Year      2007–2013
                         2007      2008      2009         2010     20113    20124    20135       Totals

Exam Closures             1.49      2.00      2.15         1.97     2.04     2.05     2.05       13.75
Math Error Notices        0.41      0.44      0.40         0.41     0.35     0.32     0.28        2.61
Document Matching         1.29      1.23      1.17         1.43     1.32     1.55     1.55        9.54
Amended Returns             –       0.07      0.07         0.06     0.04     0.04     0.04        0.32

Total                     3.19      3.74      3.79        3.87     3.75     3.96     3.92        26.22
Source: The IRS’s Fiscal Year 2012 Agency Financial Report.


3
  Restated actual.
4
  Preliminary estimates.
5
  Estimated based on Fiscal Year 2012 preliminary data.
                                                                                               Page 20
         The Internal Revenue Service Is Not in Compliance With
          Executive Order 13520 to Reduce Improper Payments



                                                       Appendix V

     Internal Revenue Service Report to the
Treasury Inspector General for Tax Administration




                                                             Page 21
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 22
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 23
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 24
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 25
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 26
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 27
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 28
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 29
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 30
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 31
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 32
      The Internal Revenue Service Is Not in Compliance With
       Executive Order 13520 to Reduce Improper Payments



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 33
The Internal Revenue Service Is Not in Compliance With
 Executive Order 13520 to Reduce Improper Payments




                                                    Page 34
